Department of Homeland Security
   Ofﬁce of Inspector General


             Independent Auditors' Report on FLETC 

            FY 2008 Consolidated Financial Statement





OIG-09-61                                           April 2009
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                         April 16, 2009

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

The attached report presents the results of our audit of the Federal Law Enforcement Training
Center’s (FLETC) consolidated financial statement audits for the fiscal year (FY) 2008 and FY
2007. We contracted with the independent public accounting firm KPMG LLP to perform the
audits. The contract required that KPMG LLP perform its audits according to generally accepted
government auditing standards and guidance from the Office of Management and Budget and the
Government Accountability Office. KPMG LLP concluded that FLETC’s consolidated financial
statements as of and for the years ended September 30, 2008 and 2007, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles. The FY 2008
auditor’s report discusses three significant deficiencies of which two are considered to be material
weaknesses, as well as one instance of noncompliance with laws and regulations. KPMG is
responsible for the attached draft auditor’s report and the conclusions expressed in the report. We do
not express opinions on FLETC’s financial statements or internal control or provide conclusions on
compliance with laws and regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                             Richard L. Skinner 

                                             Inspector General 

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General
U.S. Department of Homeland Security:
Director

Federal Law Enforcement Training Center: 

We have audited the accompanying consolidated balance sheets of the U.S. Department of Homeland
Security’s (DHS) Federal Law Enforcement Training Center (FLETC) as of September 30, 2008 and 2007,
and the related consolidated statements of net cost, and changes in net position, and combined statements
of budgetary resources (hereinafter referred to as “consolidated financial statements”) for the years then
ended. The objective of our audit was to express an opinion on the fair presentation of these consolidated
financial statements. In connection with our fiscal year 2008 audit, we also considered FLETC’s internal
controls over financial reporting and tested FLETC’s compliance with certain provisions of applicable
laws, regulations, and contracts that could have a direct and material effect on these consolidated financial
statements.
Summary
As stated in our opinion on the consolidated financial statements, we concluded that the FLETC’s
consolidated financial statements as of and for the years ended September 30, 2008 and 2007, are presented
fairly, in all material respects, in conformity with U.S. generally accepted accounting principles.
As discussed in Note 18, certain balances previously reported in the consolidated financial statements as of
and for the year ended September 30, 2007 have been restated to correct errors in accounting for
reimbursable revenue, environmental liabilities and unfilled customer orders, which are discussed in
Exhibit I. These corrections are also described in Exhibits I-A and I-B.
Our consideration of internal control over financial reporting resulted in the following conditions being
identified as significant deficiencies:
    A. Financial Reporting
    B. Environmental Liabilities
    C. Information Technology General and Application Controls
We consider significant deficiencies A and B, above, to be material weaknesses.
The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
one instance of noncompliance with the following law that is required to be reported under Government
Auditing Standards, issued by the Comptroller General of the United States, and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements:
    D. Anti-deficiency Act
The following sections discuss our opinion on FLETC’s consolidated financial statements; our
consideration of FLETC’s internal controls over financial reporting; our tests of FLETC’s compliance with
certain provisions of applicable laws, regulations, and contracts; and management’s and our
responsibilities.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the U.S. Department of Homeland
Security’s (DHS) Federal Law Enforcement Training Center (FLETC) as of September 30, 2008 and 2007,
and the related consolidated statements of net cost, and changes in net position, and the combined
statements of budgetary resources for the years then ended.
In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of FLETC as of September 30, 2008 and 2007, and its net costs, changes in
net position, and budgetary resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.
As discussed in Note 18, certain balances previously reported in the consolidated financial statements as of
and for the year ended September 30, 2007 have been restated to correct errors in accounting for
reimbursable revenue, environmental liabilities and unfilled customer orders. These corrections are also
described in Exhibits I-A and I-B.
The information in the Management’s Discussion and Analysis and Required Supplementary Information
is not a required part of the consolidated financial statements, but is supplementary information required by
U.S. generally accepted accounting principles. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information and, accordingly, we express no opinion on
it.
Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The information in the Other Accompanying Information section are presented for
purposes of additional analysis and are not required as part of the consolidated financial statements. This
information has not been subjected to auditing procedures and, accordingly, we express no opinion on it.
Internal Control over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and would not necessarily identify all deficiencies in the internal
control over financial reporting that might be significant deficiencies or material weaknesses.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects FLETC’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of FLETC’s consolidated financial statements that is more than
inconsequential will not be prevented or detected by FLETC’s internal control. A material weakness is a
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected by
FLETC’s internal control.
In our fiscal year 2008 audit, we consider the deficiencies, described in Exhibits I and II, to be significant
deficiencies in internal control over financial reporting. However, of the significant deficiencies described
in Exhibits I and II, we believe that the significant deficiencies presented in Exhibit I are material
weaknesses. Exhibit IV presents the status of prior year significant deficiencies.
Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities section of this report,
disclosed one instance of noncompliance or other matter that is required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, and is described in Exhibit III.


                                                      2

The results of our other tests of compliance as described in the Responsibilities section of this report,
disclosed no other instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.
Other Matter. FLETC management has identified a matter that has been reported as a violation of the
Anti-deficiency Act related to the classification of a building lease. The Office of Inspector General has
initiated a review of the classification of two additional building leases at FLETC that may identify
violations of the Anti-deficiency Act, or other violations of appropriations law that may have occurred
during FY 2008 or during previous years.
Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, and contracts
applicable to FLETC.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2008 and 2007
consolidated financial statements of FLETC based on our audits. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we
plan and perform the audits to obtain reasonable assurance about whether the consolidated financial
statements are free of material misstatement. An audit includes consideration of internal control over
financial reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of FLETC’s internal control over
financial reporting. Accordingly, we express no such opinion.
An audit also includes:
�	 Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
   financial statements;
�	 Assessing the accounting principles used and significant estimates made by management; and
�	 Evaluating the overall consolidated financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
In planning and performing our fiscal year 2008 audit, we considered FLETC’s internal control over
financial reporting by obtaining an understanding of FLETC’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements. We did not test all internal controls relevant to operating objectives as broadly defined
by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an
opinion on the effectiveness of FLETC’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of FLETC’s internal control over financial reporting.
As part of obtaining reasonable assurance about whether FLETC’s fiscal year 2008 consolidated financial
statements are free of material misstatement, we performed tests of FLETC’s compliance with certain
provisions of laws, regulations and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations
and contracts applicable to FLETC. However, providing an opinion on compliance with laws, regulations,
and contract agreements was not an objective of our audit and, accordingly, we do not express such an
opinion.



                                                      3

                                 ______________________________

FLETC’s response to the findings identified in our audit is attached to this report. We did not audit
FLETC’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of FLETC’s management, DHS management, the
DHS Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




March 26, 2009 





                                                  4

Independent Auditors’ Report
Exhibit I – Material Weaknesses


I-A Financial Reporting
Background: The U.S. Department of Homeland Security’s (DHS) Federal Law Enforcement
Training Center (FLETC) primary line of business is to provide law enforcement training at its
four US facilities for DHS components and over 80 federal and state and local agencies. Annual
appropriations are used to pay for certain types of training, while the cost of other, typically
advanced and specialized training is reimbursed by the other agencies. Generally, FLETC enters
into annual reimbursable agreements with their customers, and bills all training charges on a
monthly basis.
In addition, to ensure that its facilities and training programs are state-of-the-art, and able to meet
the changing needs of its customers, FLETC is continuously maintaining, modifying, and
constructing new property, plant and equipment. FLETC also provides construction contract
management services for certain DHS components and other federal agencies to build specialized
training facilities. FLETC pays for the cost of construction with its own and other Federal agency
dedicated appropriations.
Conditions: We identified the following control deficiencies which in combination are
considered a material weakness in internal controls over financial reporting:
Reimbursable Construction Revenue:
FLETC did not have adequate policies and procedures in place to ensure that reimbursable
construction revenue is recorded in the same fiscal year that the associated expenses are incurred.
We noted 3 instances where reimbursable construction revenue was recognized in fiscal year
(FY) 2008, when the related expenses were incurred and accrued or paid during FY2007. The
three errors identified by us totaled approximately $9 million of unrecorded revenue as of
September 30, 2007. After the discovery of these errors FLETC performed a review of
reimbursable construction expenses recognized in FY 2007, and identified an additional $2.1
million of unrecorded reimbursable revenue at September 30, 2007. As a result, FLETC recorded
an adjustment and restated its September 30, 2007 financial statements for $11.1 million, to
correct these errors.
Accounts Payable:
FLETC does not have a policy or process to systematically validate its accounts payable accrual
estimates to ensure that the process is producing accurate and complete financial statement
balances. In addition, management review controls are not operating effectively. We noted
several errors in the accounts payable accrual recorded at September 30, 2008. After the
discovery of these errors, FLETC management performed additional procedures over the
accuracy and completeness of the accounts payable accrual. The procedures, which were
performed approximately three months after fiscal year-end, resulted in FLETC increasing its
accounts payable accrual at September 30, 2008, by approximately $4 million.
Capital Assets and Construction in Progress:
FLETC Finance Division and the construction project and/or site managers do not always follow
established FLETC policies and procedures to ensure that its capitalized assets, including
construction in progress, are accounted for completely and accurately. For example:
    �	 FLETC did not always record the correct date of capitalization in its fixed asset system.
       This information is used by the system to compute and record depreciation expense. We
       noted 2 instances (totaling approximately $5.6 million) out of 10 samples selected for
       testwork where the costs of the assets were entered in the fixed asset system but the in-
       service (capitalization) dates were not. Consequently, depreciation expense was not
       recorded accurately or timely.



                                                  I.1

Independent Auditors’ Report
Exhibit I – Material Weaknesses


   �	 FLETC has not recorded transfers of completed assets from construction in progress
      (CIP) to in-use assets in its general ledger at the Artesia location in a timely manner.
       -   We noted that 5 out of 7 assets tested were not transferred to capitalized assets timely
           as of March 31, 2008.
       -   We also noted 8 instances out of 12 sample items tested where the completed
           construction projects were not transferred to capitalized assets timely. All 8 of the
           completed assets should have been reclassified to capitalized assets prior to April 1,
           2008.
   �	 FLETC does not properly capitalize all construction related expenses, e.g., construction
      management labor, until the end of construction, or perform periodic analysis to
      determine if the expenses should be recorded for interim and year-end reporting if
      material. The expenses are reclassified to capital assets when construction is complete –
      which in some cases is more than a year resulting in temporarily misstated capital assets
      and expenses reported in FLETC’s financial statements.
Adjustments to Certain Budgetary Accounts:
FLETC does not have the adequate policies and procedures for recording certain upward and
downward adjustments of undelivered orders, and unfilled customer orders related to
reimbursable construction contracts. We noted that:
�	 One adjustment to undelivered orders tested during FY 2008 totaling $4.2 million was posted
   in error, and the adjustment was not recorded in full compliance with the United States
   Standard General Ledger (USSGL). Because of this error, FLETC’s total budgetary resources
   and total status of budgetary resources lines on the Statement of Budgetary Resources were
   overstated. The existence of invalid upward and downward adjustments is a repeat condition
   that was reported in our FY 2007 report. FLETC management represents that its Momentum
   System upgrade, completed in August 2008, will correct this condition.
�	 For long-term reimbursable construction contracts, FLETC has incorrectly adjusted certain
   unfilled customer order account balances at the end of FY 2008 and prior years. This resulted
   in FLETC understating budgetary resources in each year FLETC had open customer orders
   for construction. As a result of this error FLETC restated its FY 2006 and 2007 financial
   statements to increase its unfilled customer orders by $10.6 million and $36.0 million, and
   corrected an error totaling $ 38.1 million recorded to unfilled customer orders in FY 2008.
�	 For annual funds related to reimbursable training and supplies and services, FLETC did not
   properly reduce the unfilled customer order to zero at year end as no future billings would be
   made. This resulted in unfilled customer orders being overstated by $4.5 million and $9.8
   million in FY 2007 and 2008, respectively.
In addition, FLETC’s review conducted to assist the Department with its compliance with the
Federal Manager Financial Integrity Act of 1982 (FMFIA) and OMB Circular A-123,
Management’s Responsibility for Internal Control, did not identify all of the material weaknesses
that we identified during our audit, as described above and in Comment I-B Environmental
Liabilities. Generally, management’s review, for purposes of reporting under FMFIA and OMB
A-123 should result in identification of similar, if not that same, control deficiencies over
financial reporting, as identified by the external financial statement auditors.
Cause/Effect: FLETC has separate financial reporting processes for construction expenses and
revenue and therefore reimbursable construction expenses may be incurred, and the related
construction revenue not recorded timely, resulting in a temporary understatement of accounts



                                                I.2

Independent Auditors’ Report
Exhibit I – Material Weaknesses

receivable and revenue. FLETC did not have a procedure to review the expenses incurred (and
accrued) for potential reimbursable construction revenue that should also be recorded at year end.
Additionally, FLETC did not follow the Treasury posting model for recording reimbursable
expenses which would have ensured that the related accounts receivable and revenues were
recorded at the same that the expenses were accrued.
FLETC is unable to assert to the validity of its accounts payable accrual, because they do not
validate that the estimation process is working as intended, e.g., routinely producing reliable and
timely accrual estimates. Consequently, FLETC’s year-end accounts payable accrued balances
and expenses may be misstated by a material amount.
FLETC has established policies and procedures to account for CIP; however they are not always
followed. The FLETC’s Finance Division is dependent on the timely and accurate reporting of
construction activities, and the project/site managers are not always reporting building status
timely. In addition, contracting officers are not always providing necessary information to the
Finance Division in a timely manner. The conditions noted above could result in periodic
misstatements of CIP in the financial statements.
FLETC must record manual JVs to correct invalid upward and downward adjustments caused by
the Momentum system’s non-compliance with USSGL. Errors in these manual adjustments
could result in material misstatements in the financial statements.
FLETC’s policies and procedures do not provide sufficient detail on all types of reimbursable
contracts.
We noted that the conditions, which lead to auditor identified current and prior year financial
statement adjustments and restatements occurred in part due to ineffective monitoring controls
within the finance division and/or inadequate communications, e.g., policies and procedures
established with other divisions within FLETC, such as Budget and Procurement. These control
deficiencies are an indicator of weaknesses in direct entity-level controls.
All of the conditions noted above may adversely affect FLETC’s ability to accurately report the
results of its financial operations in a timely manner to the Department and the other users of its
financial statements.
Criteria: Office of Management and Budget (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, defines management’s responsibility for internal control and
provides guidance to Federal managers on improving the accountability and effectiveness of
Federal programs and operations by establishing, assessing, correcting, and reporting on internal
control. Under OMB Circular A-123, “[w]ithin the organizational structure, management must
clearly: define areas of authority and responsibility; appropriately delegate the authority and
responsibility throughout the agency; establish a suitable hierarchy for reporting; support
appropriate human capital policies for hiring, training, evaluating, counseling, advancing,
compensating, and disciplining personnel; and uphold the need for personnel to possess and
maintain the proper knowledge and skills to perform their assigned duties as well as understand
the importance of maintaining effective internal control within the organization.”
Statement of Federal Financial Accounting Standards (SFFAS) No. 7 – Accounting for Revenue
and other Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting,
paragraphs Nos. 36 and 118 state in relevant parts: “When services are provided to the public or
another Government entity (except for specific services produced to order under a contract),
revenue should be recognized when the services are performed.” And “[m]atching revenue with
cost in a … uniform manner is essential in evaluating agency performance and setting price.
Therefore, costs should be matched against the provision of goods and services with revenue



                                                 I.3

Independent Auditors’ Report
Exhibit I – Material Weaknesses

matched against those costs and thus with revenue also matched against the same provision of
goods and services.” In addition, FLETC recently issued FIN SOP-59 – Recording of Revenues
for Accrued Reimbursable Expenses to strengthen controls over the year-end revenue accrual
process.
FLETC has SOPs, e.g., FIN SOP-7, Construction in Progress (CIP) Account, FIN SOP-5
Capitalization of Assets, and Property Management (PMD) SOP #9, Real Property SOP that
establish policy for the timely and accurate accounting for CIP.
Recommendations: We recommend that FLETC:
Regarding Reimbursable Construction Revenue:
   1.	 Develop and implement policies and procedures to ensure that reimbursable construction
       revenue is computed and recorded to match the related expenses that are accrued at year
       end; and
   2.	 Implement controls to ensure that FLETC adheres to guidelines in the recently issued
       FIN SOP-59, and that the controls are operating effectively throughout the year.
Regarding Accounts Payable:
   3.	 Develop and implement policies and procedures to test and validate the reliability of the
       method used to estimate accounts payable;
   4.	 After the methodology is proven to be reliable, then adopt a system of routine validation
       of the estimate to ensure the data (input to the methodology) is accurate and complete;
       and
   5.	 Improve training for some personnel, i.e., contracting officers and new Finance Division
       staff on the accrual process.
Regarding Capital Assets and Construction in Progress:
   6.	 Adhere to FIN SOP-5, FIN SOP-7, PMD SOP #9, and other appropriate policies and
       procedures to ensure timely transfers of completed assets from CIP to in-use assets, and
       to ensure that CIP assets are properly recognized in the correct accounting period;
   7.	 Consider adopting year-end cut-off procedures to identify assets that may have been
       recently placed in service, however remain in CIP;
   8.	 Consider the cost/benefit of:
       a.	 Establishing a process to allocate and capitalize indirect labor expense
           contemporaneously as projects are constructed; and
       b.	 Procedures to ensure amounts are appropriately capitalized during construction of
           CIP projects instead of being recorded as operating expenses.
Regarding Certain Budgetary Adjustments:
   9.	 Ensure that the Momentum system upgrade posting logic / models are designed to allow
       full compliance with the USSGL and prevent the occurrence of invalid upward and
       downward adjustments.
    10. Design and implement policies and procedures to properly account for unfilled customer
        orders related to all types of reimbursable contracts.
In addition, we recommend that FLETC strengthen entity-level controls, particularly in the areas
of communications and monitoring, supervision, training, instruction and oversight of non-
accounting personnel that are essential to the accounting process, and fair and timely presentation
of financial statement balances.
We also recommend that FLETC improve its review procedures to assist the Department with its
compliance with FMFIA and OMB Circular A-123 to ensure that all material weaknesses are
identified and reported to the Department.


                                                I.4

Independent Auditors’ Report
Exhibit I – Material Weaknesses

I-B Environmental Liabilities
Background: FLETC maintains a number of firing ranges in four locations. FLETC also has
facilities that contain lead-based paint and asbestos, where environmental liabilities may exist. In
2007 we identified and reported a control deficiency related to FLETC’s process of estimating its
environmental clean-up costs liability. At the time of our 2008 audit, FLETC had not corrected
the control deficiency, and we determined that the FLETC environmental liability balances may
be materially misstated. FLETC management then performed a review of the supporting
information provided by the FLETC Environmental and Safety Division (EVS) engineers. In
October 2008, FLETC EVS and Finance Division determined that the environmental liability was
materially misstated, and recorded a correction of error to restate its FY2007 and prior year
financial statements. FLETC also issued SOP EVS-011 – Environmental Liabilities to improve
its controls over the accumulation of data and the reporting of environmental liabilities. This
SOP was issued after our fieldwork and we have not reviewed the design or operating
effectiveness of the new controls established by this SOP.
Conditions: During our fieldwork conducted in August and September 2008, and prior to
management’s review conducted in October 2008, we noted the following control weaknesses
related to environmental liabilities.
    �	 FLETC did not have adequate processes, policies, and procedures in place whereby the
       EVS identifies, assesses, estimates, and reports to the Finance Division regarding the
       existence and estimate of environmental liabilities throughout the year. Related to the
       lack of policies and procedures:
        - FLETC had not fully implemented its corrective action plan to remedy the conditions
          identified in previous year audits as of August 2008. Specifically, the new SOP was
          not complete at the time of our meeting with the persons responsible for identifying
          and estimating FLETC environmental liabilities.
        - FLETC does not have the necessary policies and procedures in place to exercise “due
          care”, as defined in Federal Financial Accounting and Auditing Technical Release
          No.2, Determining Probable and Reasonably Estimable for Environmental Liabilities
          in the Federal Government.
    �	 FLETC does not have the necessary financial management, supervisory and monitoring
       controls, in place to effectively manage (through policies and procedures) the annual
       process of estimating the environmental liability (in coordination with EVS), and
       performing the appropriate level of review of EVS’ work. For example:
        - Policies and procedures establishing the Finance Division’s responsibility for the
          estimates provided by EVS, and the management monitoring control are not effective.
        - We identified numerous material mathematical and calculation errors in the October
          report provided by EVS which were not identified by Finance Division reviews.
          FLETC subsequently changed their September 30, 2008 estimate from $17.0 million
          to $21.0 million.
These control weaknesses resulted in a restatement of FLETC’s FY2007 and prior year financial
statements to increase the environmental liability estimates from $13.8 million to $20.9 million
and reduce FY 2007 gross cost by $2.3 million.
Cause/Effect: Preceding the new issuance of SOP EVS-011, there was a lack of a clear and
effective process within the EVS Division for identifying, assessing, estimating and reporting
environmental liabilities to the Finance Division. In addition, the Finance Division has not fully
assumed responsibility for the accuracy the environmental liabilities presented in the financial


                                                I.5

Independent Auditors’ Report
Exhibit I – Material Weaknesses

statements, and did not have sufficient oversight or review of EVS’ work. The lack of a process
or adherence to a process for identifying and accounting for environmental liabilities may lead to
material misstatements in the environmental clean-up costs liability estimate.
Criteria: Statement of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for
Liabilities of the Federal Government, provides the definition and general principle for
recognition of liabilities in paragraph 19: “A liability for federal accounting purposes is a
probable future outflow or other sacrifice of resources as a result of past transactions or events.”
Technical Release No.2 states, “liabilities shall be recognized when the following conditions are
met:
    �	 a past transaction or event has occurred,
    �	 a future or other sacrifice of resources is probable, and
    �	 the future outflow or sacrifice of resources is measurable.”
Technical Release No. 2 also states the following regarding due care: “Due care refers to a
reasonable effort to identify the presence or likely presence of contamination. Due care is
considered to be exercised if an agency has effective policies and procedures in place to routinely
attempt to identify contamination and forward that information to the responsible agency
official.” Procedures that are evidence of the exercise of due care are further described in
Technical Release No.2.
Statement of Federal Financial Accounting Standards (SFFAS) No.6, Accounting for Property,
Plant, and Equipment, defines clean-up costs in paragraph 85 as: “…the costs of removing,
containing, and/or disposing of (1) hazardous waste … from property, or (2) material and/or
property that consists of hazardous waste at permanent or temporary closure or shutdown of
associated PP&E.” Furthermore, paragraph 87 clarifies that “Cleanup may include, but is not
limited to, decontamination, decommissioning, site restoration, site monitoring, closure, and post-
closure costs.”
Recommendations: Our recommendations are current at the time of our audit, and do not
consider FLETC’s recently issued SOP EVS-011. We recommend that FLETC management:
    1.	 Complete and implement a corrective action plan to address our prior year control
        deficiency as discussed in the Background section above;
    2.	 Develop and implement adequate processes, policies, and procedures to ensure EVS
        performs the necessary procedures to satisfy their responsibilities related to the
        environmental liability estimate and Technical Release No.2. Also, implement
        procedures to ensure appropriate levels communication and coordination between EVS
        and the Financial Management Team;
    3.	 Implement policies and procedures to properly exercise Due Care, as defined in
        Technical Release No.2, throughout the year related to the environmental clean-up cost
        liability estimation process; and
    4.	 Implement the necessary financial management, supervisory and monitoring controls to
        effectively manage (through policies and procedures) the annual process of estimating the
        liability (in coordination with EVS), and performing the appropriate level of review of
        EVS’ work.




                                                 I.6

Independent Auditors’ Report
Exhibit II – Significant Deficiency


(See Exhibit I for Comments A and B)

II-C Information Technology General and Application Controls
Background: FLETC performed a significant information technology (IT) system upgrade in
August 2008 which made numerous changes to their IT environment. This upgrade is related to
FLETC’s Momentum financial reporting system – its core general ledger system. The objective
of this upgrade was, in part, to strengthen the overall IT control environment and to correct many
of the IT general control weaknesses that had been identified in prior years. The Momentum
upgrade from version 3.7 to version 6.1 was completed in August 2008.
Conditions: The same IT control weaknesses identified during our FY 2007 audit existed for a
majority of FY 2008 since the upgrade wasn’t completed until August 2008. The most significant
weaknesses related to access controls, application software development, and change controls.
However, we also identified weaknesses in entity-wide security program planning and
management, system software and service continuity. We noted that some systems were not
configured in the most secure manner, some policies and procedures and corrective actions
remained in draft form and had not been implemented, test plan standards and procedures had not
been implemented, and some back-up and contingency systems had not been tested.
Cause/Effect: Collectively, the IT control deficiencies that existed during a majority of the
FY2008 limit FLETC’s ability to ensure that critical financial and operational data is maintained
in such a manner to ensure confidentiality, integrity, and availability. The upgraded Momentum
version 6.1 may help to remediate many of these IT control weaknesses.
Criteria: The Federal Information Security Management Act (FISMA) passed as part of the E-
Government Act of 2002, mandates, among other things, that Federal entities maintain IT security
programs in accordance with National Institute of Standards and Technology (NIST) guidance,
and other applicable guidance.
OMB Circular No. A-130, Management of Federal Information Resources, describes specific
essential criteria for maintaining effective general IT controls.
DHS’ Sensitive Systems Policy, 4300A, documents policies and procedures adopted by DHS
intended to improve the security and operation of all DHS IT systems.
Recommendations: The Momentum upgrade occurred too late in the audit cycle for us to fully
evaluate the design and operating effectiveness of the updated IT general controls and certain IT
application controls. Therefore, we have no recommendations at this time.




                                               II.1

Independent Auditors’ Report
Exhibit III – Noncompliance with Laws and Regulations


(See Exhibit I for Comments A and B, and Exhibit II for Comment C)

III-D The Anti-deficiency Act (ADA)
FLETC management notified us of an Anti-deficiency Act (ADA) violation that occurred at
FLETC, where a capital lease dating back to FY2001 was not fully funded. The DHS Secretary
has reported the violation to the President of the United States, the President of the Senate, the
Speaker of the House of Representatives, and the Comptroller General, as required by 31 U.S.C.
Section 1351. The FLETC ADA violation described above relates to one building lease. DHS
reviewed two similar building leases, but determined that the funding of those leases did not
violate the ADA because they were operating leases, rather than capital leases. Management has
released Procurement (PRO) SOP No. 08-0005, Lease Acquisition Process, dated August 7, 2008
to implement corrective policy to prevent ADA violations related to building leases from
occurring in the future. Accordingly, FLETC management considers the issue closed, and no
further review is planned by management.
The DHS OIG has initiated an investigation into the classification of the two building leases
determined by DHS to be operating leases, to evaluate the propriety of FLETC’s conclusions
regarding compliance with the ADA. The OIG's review may identify additional ADA violations.
Recommendations: We have not audited the design or operating effectiveness of PRO SOP 08­
0005. FLETC should monitor the OIG review to determine if further changes to policy and
procedures or improvements in internal controls are necessary to prevent any future ADA
violations.




                                               III.1

Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings




                                           As Reported at                     Status as of September
    Prior Year Condition
                                         September 30, 2007                   30, 2008
 Management Review of         Material weakness: Several weaknesses                Repeated as
 Upward and Downward          existed related to upward and downward            Material Weakness
 Adjustments                  adjustments. Transactions affecting                (Comment I-A)
                              upward and downward adjustment accounts
                              were not valid upward and downward
                              adjustments. Also, Momentum financial
                              desktop was configured incorrectly per the
                              U.S. Government Standard General Ledger
                              (USSGL). This forced the FLETC finance
                              division to prepare manual journal
                              vouchers to reclassify amounts during close
                              out procedures at year-end. Errors in the
                              above conditions led to FLETC recording a
                              correcting upward/downward adjustment at
                              year-end totaling more than $15 million.
 Environmental Clean Up       Significant deficiency: Several                      Repeated as
 Costs                        weaknesses existed related to                     Material Weakness
                              environmental clean up costs, including an         (Comment I-B)
                              inconsistent application of the methodology
                              used to estimate environmental liabilities
                              resulting in a net overstatement of total
                              liabilities, and a finding of costs that were
                              capitalized related to asbestos abatement
                              that should have been expensed in the
                              period incurred.

 Accounts Payable             Significant deficiency: FLETC had not                Repeated as
                              developed or implemented adequate                Material Weaknesses
                              policies or a process for                          (Comment I-A)
                              estimating/accruing Accounts Payable
                              liabilities at fiscal year end.

 Financial Systems Security   Significant deficiency: Several                       Repeated
                              weaknesses existed related to Financial            (Comment II-C)
                              Systems Security, such as IT general
                              control weaknesses, entity-wide security
                              program planning weaknesses, system
                              software weaknesses, and service
                              continuity weaknesses.

 Non-compliance with the      Instance of non-compliance: FLETC was              Reported at DHS
 Federal Financial            not in substantial compliance with FFMIA.         Consolidated Level
 Management Improvement       FFMIA requires that an agency’s financial
 Act                          management systems substantially comply
                              with Federal financial management system
                              requirements, applicable Federal
                              accounting standards, and the U.S.
                              Standard General Ledger at the transaction
                              level.




                                                IV.1

Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary, Management
                      Chief Financial Officer
                      Deputy Chief Financial Officer
                      Director Office of Financial Management
                      Chief Information Officer

                      Federal Law Enforcement Training Center

                      Director, Federal Law Enforcement Training Center
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
